  FOLLOW-UP AUDIT OF MEDICAL 

 DEVELOPMENT INTERNATIONAL’S 

PERFORMANCE UNDER THE FEDERAL 

 CORRECTIONAL COMPLEX BUTNER 

  MEDICAL SERVICES CONTRACT 

    BUTNER, NORTH CAROLINA



       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 14-02 

            November 2013


     FOLLOW-UP AUDIT OF MEDICAL DEVELOPMENT 

  INTERNATIONAL’S PERFORMANCE UNDER THE FEDERAL 

          CORRECTIONAL COMPLEX BUTNER 

            MEDICAL SERVICES CONTRACT 

             BUTNER, NORTH CAROLINA 



                           EXECUTIVE SUMMARY



       The Office of the Inspector General (OIG), Audit Division, has
completed a follow-up audit of the Federal Bureau of Prisons’ (BOP)
administration of medical contracts awarded to Medical Development
International (MDI). MDI was originally awarded a 5-year contract on
August 8, 2001, to act as an intermediary and develop provider networks
that, in turn, provide medical services for approximately 3,700 inmates
housed at the Federal Correctional Complex (FCC) in Butner, North Carolina.

       In March 2007, an OIG audit of MDI’s performance under this 5-year
contract found that the BOP had not properly administered the contract to
prevent payment of erroneous bills and found numerous deficiencies in
billings under the contract, including billing the BOP for $1,514,981 in
unsupported costs. We made a statistical projection based on the identified
unsupported costs and found that MDI had billed BOP a total of $2,428,345
in unsupported costs.

      To evaluate the actions taken by the BOP to address the
recommendations from our previous audit, we performed this follow-up audit
on the BOP’s management of the successor contract (Contract No.
DJB10611026), which was awarded to MDI for the period April 18, 2007,
through April 17, 2012.1 The contract was initially awarded for
$104,174,846 and was subsequently increased through contract
modifications to $107,271,650.

The BOP’s Actions to Implement Our 2007 Recommendations

     We found that the BOP took corrective actions on the
recommendations from the 2007 audit but did not ensure that those

      1
          The end date for the contract was extended to July 17, 2012, to allow time to
award successor contracts. Between June and August 2012, the BOP awarded six contracts
to four different contractors to replace the MDI medical services contract. MDI did not
receive any of the six successor contracts.
corrective actions were fully implemented. As a result, the BOP’s corrective
actions were not fully effective in improving the deficiencies reported in the
prior audit.

      		 The BOP provided supporting documentation for $219,520 of the
          questioned costs identified in the 2007 audit and recovered the
          remaining $1,295,461 by withholding payment for invoices owed to
          MDI.

      		 BOP implemented the use of a time clock to improve controls over
          the review and payment of hours billed by on-site providers. While
          the use of a time clock has improved the accuracy of billings by
          providers, the BOP has not consistently enforced the use of the
          time clock. As a result, we identified $140,819 paid to MDI for
          hours of services for which we could not determine the accuracy of
          the billing.

      		 To improve contract administration, a BOP Supervisory Contract
          Specialist (SCS) was maintaining and updating the contract
          administration plan. However, we found that the BOP did not take
          action to ensure MDI was making a good faith effort to achieve its
          subcontracting goals, using the standards set forth in Federal
          Acquisition Regulation (FAR) 19.705-7(c) and (d).

      		 To improve the review of MDI billings, the BOP retained contractors
          to review medical claims submitted by MDI and to follow up on any
          issues. We found that the review and follow-up processes have
          been effective at correcting the coding and pricing deficiencies
          noted in our prior audit.

MDI Practices for Managing Subcontractor Payments

      During our audit, we confirmed information provided to us by
members of Congress that MDI had received payments from the BOP for
health care services provided to inmates by the Duke University Health
System (DUHS), but had not reimbursed DUHS for all the services provided.
DUHS claimed that it had not been paid for about $16.2 million in services
provided, including penalties. After the court appointed a Receiver, the
Receiver and DUHS agreed to a judgment in the amount of $13,916,622. 2

      2
         In September 2012, in an unrelated lawsuit by MDI’s only secured creditor, the
court appointed a Receiver over MDI. The Receiver is liquidating MDI’s assets to pay its
secured creditor, Wells Fargo. Neither the Receiver nor DUHS expect that DUHS will receive
any proceeds from the judgment because of DUHS’ status as an unsecured creditor.




                                            ii
       We found the BOP became aware of MDI’s failure to pay DUHS in
November 2010, and that another BOP institution made a determination in
May 2011 that MDI was a non-responsible contractor based primarily on
MDI’s failure to pay its subcontractors for FCC Butner and six other BOP
institutions. Despite this information, BOP did not take prompt action to
address the non-payment dispute between MDI and DUHS. In total, the
other six subcontractors claimed that MDI owed them more than $6 million.

       Moreover, the BOP did not inform other BOP institutions of MDI’s
financial problems through an agency-wide announcement to procurement
officials until approximately 9 months later, in February 2012. While we did
not find evidence of an actual adverse impact to BOP from this delay, in
general delays such as this increase the risk of BOP institutions unknowingly
making awards to companies that are having financial difficulties.

       In addition, despite having what we believe to be a reasonable
justification to do so, the BOP never recommended MDI for suspension or
debarment from future government contracts, which would have helped to
protect other federal agencies. Further, the BOP did not report the non-
responsibility determination made for MDI in the Federal Awardee
Performance and Integrity Information System, which would have alerted
other government contracting officers of MDI’s performance problems. In
our judgment, the BOP’s failure to share information both internally and with
other agencies increased the risk that relevant contract administration staff
would not have adequate information to make cost effective decisions when
procuring medical services and to avoid doing business with a non-
responsible contractor.

      This audit report makes seven recommendations to help the BOP
further improve its oversight and administration of medical services
contracts at FCC Butner.




                                      iii
                               TABLE OF CONTENTS


INTRODUCTION ....................................................................... 1 

     Background ........................................................................ 2 

     The 2007 OIG Audit ............................................................. 2 

     Current Audit Objectives and Approach ................................... 3


FINDINGS AND RECOMMENDATIONS....................................... 4


     The BOP's Actions to Implement the Recommendations 

      from Our 2007 Audit and the Effectiveness of Those 

      Actions ........................................................................... 4


          Actions to Remedy Questioned Costs from the OIG's 

           2007 Audit.................................................................. 5


          Actions to Strengthen Controls over Hours Billed for 

           On-site Providers ......................................................... 5


          Other Actions to Improve Administration of the Contract ......8


          Actions to Improve Controls over the Review and 

           Payment of Medical Claims .............................................9


     MDI's Practices for Managing Billings and Payments to 

      its Subcontractors and the BOP's Actions to Address 

      Deficiencies in MDI's Practices ...................................... 10 

          MDI's Billing Dispute with DUHS...................................... 11


          MDI's Accounting for Payments Received from the BOP 

           and Made to Subcontractors ......................................... 12


          BOP's Efforts to Address MDI's Non-payment to DUHS Prior 

           to Extending MDI's Contract in April 2011 ...................... 12 

          BOP's May 2011 Determination that MDI Was a


           Non-responsible Party ................................................. 13


          BOP's Actions to Communicate its Determination 

           of MDI to be a Non-responsible Contractor to Other 

           BOP Facilities ............................................................. 16


          BOP's Failure to Communicate with the Federal Contracting 

           Community ................................................................ 16


          BOP's Actions to Minimize the Risk of Future Non-payment 

           of Subcontractors ....................................................... 18


     Conclusion ....................................................................... 18 

     Recommendations ........................................................... 19 

STATEMENT ON INTERNAL CONTROLS.................................... 20 

STATEMENT ON COMPLIANCE WITH LAWS 

    AND REGULATIONS ........................................................ 21         


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ........ 22 


APPENDIX II: THE BUREAU OF PRISON’S RESPONSE TO THE 

    DRAFT REPORT ............................................................... 23 


APPENDIX III: MEDICAL DEVELOPMENT INTERNATIONAL’S 

    RESPONSE TO THE DRAFT REPORT.................................. 26 


APPENDIX IV: DUKE UNIVERSITY HEALTH SYSTEM’S 

    RESPONSE TO THE DRAFT REPORT ................................. 28 


APPENDIX V: OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT ................................................... 29


                                  INTRODUCTION

      The Office of the Inspector General (OIG) has completed a follow-up
audit of the Federal Bureau of Prisons (BOP) administration of the medical
services Contract No. DJB10611026 awarded to Medical Development
International (MDI). In March 2007, the OIG completed an audit of MDI’s
performance under BOP’s Contract No. DJB10611-00 for medical services for
inmates at the Federal Correctional Complex (FCC) in Butner, North
Carolina.1 Our 2007 audit found significant internal control weaknesses in
the BOP’s contract administration practices as the BOP paid bills submitted
by MDI without proper review. Consequently, MDI’s billings were not free of
material misstatements or errors, and there was inadequate support for
contract costs billed. As a result of these weaknesses, the OIG questioned
$2,428,345 for erroneous billings and unsupported costs.2

     To evaluate the actions taken by the BOP to address the
recommendations from our 2007 audit, we reviewed and performed tests of
the BOP’s management of the successor medical services contract (Contract
No. DJB10611026) awarded to MDI on April 17, 2007, as shown in Exhibit 1.

           EXHIBIT 1: MDI CONTRACT PERIOD AND AWARD AMOUNT
                Contract                                           Award
                 Period           From                To          Amount
              Base Year          04/18/07          04/17/08     $19,204,234
              Option Year   1    04/18/08          04/17/09     $19,939,631
              Option Year   2    04/18/09          04/17/10     $20,715,160
              Option Year   3    04/18/10          04/17/11     $21,510,782
              Option Year   4    04/18/11          04/17/123    $22,805,039
               Total                                           $104,174,8464
             Source: FCC Butner Finance Administration



       1
         U.S. Department of Justice Office of the Inspector General, The Bureau of Prisons’
Management of the Medical Services Contract with Medical Development International,
Butner, North Carolina, Contract No. DJB10611-00, Audit Report GR-40-07-003
(March 2007).
       2
        The 2007 audit made a statistical projection that, based on $1,514,981 in actual
unsupported costs, MDI had billed the BOP a total of $2,428,345 in unsupported costs.
       3
         The contract was extended to July 17, 2012, to allow time to award successor
contracts. Between June and August 2012, BOP awarded six contracts to four different
contractors to replace the MDI medical services contract. MDI did not receive any of the six
successor contracts.
       4
         The contract was initially awarded for $104,174,846 but was increased through
contract modifications to $107,271,650.




                                              1

Background

       The mission of the BOP is to protect society by confining offenders in a
safe, humane, and appropriately secure facility that provides work and other
self-improvement opportunities to assist offenders in becoming law-abiding
citizens. The health care mission of the BOP is to provide necessary
medical, dental, and mental health services to inmates by professional staff,
consistent with acceptable community standards and as authorized by the
BOP.

       In furtherance of this mission, in August 2001 the BOP awarded MDI a
5-year contract (Contract No. DJB10611-00) to provide comprehensive
medical services for approximately 3,700 inmates housed at FCC Butner.
FCC Butner is located near Raleigh/Durham, North Carolina, and consists of
several facilities for the housing of medium, low, and minimum security level
inmates. The complex includes a medical facility that houses male inmates
of all security levels.

      For FCC Butner inmates, MDI provided on-site staffing, management
of specific departments, and inmate medical services at local patient and
outpatient facilities. MDI did not directly employ medical professionals to
provide inmate care. Rather, it served as the intermediary between the BOP
and medical providers by subcontracting for medical professionals to provide
inmate care, and by providing administrative and operational support for
healthcare services at FCC Butner.

The 2007 OIG Audit

       During our 2007 audit, we found significant discrepancies in the
contractor’s billings and concluded that the BOP’s controls over the review
and payment of billed costs did not provide adequate assurance as to the
accuracy of those billings. Specifically, we found that the BOP did not
perform a detailed review of MDI’s invoices prior to the approval for
payment and did not monitor the subcontracted medical providers to prevent
the submission and payment of erroneous billings. The OIG also found that
significant internal control weaknesses existed in the BOP’s contract
administration. In particular, the contract’s language did not address
specific billing requirements to ensure that proper support was provided for
personnel services, and BOP personnel involved in the approval and
payment of MDI’s invoices did not adequately communicate with each other
on the procedures performed during the review and payment of invoices
submitted for payment by MDI, resulting in payments without supporting
documentation.



                                       2

      As a result of these weaknesses, our 2007 audit report contained one
recommendation to remedy $2,428,345 in questioned costs for unsupported
hours billed by MDI, three recommendations to address weaknesses in
controls over the accuracy of billing for hours of services provided by on-site
providers, three recommendations to improve the administration of the
contract, and three recommendations to improve BOP’s controls over the
review of and payments for medical procedures.5

Current Audit Objectives and Approach

       The objectives of the audit were to: (1) determine if the BOP took
appropriate actions to implement the recommendations from our 2007 audit,
(2) determine if the corrective actions implemented improved the BOP’s
oversight of the contract and MDI’s compliance with the terms and
conditions of the contract, and (3) evaluate MDI’s practices for managing
billings from and payments to its subcontractors.6

     To determine if the BOP took appropriate actions to implement the
recommendations from the 2007 audit, we reviewed the plan of action
submitted by the BOP and interviewed personnel responsible for
implementing the recommendations.

      To determine if the corrective actions implemented improved the
BOP’s oversight of the contract and MDI’s compliance with the terms and
conditions of the contract, we performed audit work at FCC Butner and
interviewed BOP personnel responsible for administering health services,
performing contractual and financial administrative duties, and reviewing
medical procedure billings. We also performed reviews of billings submitted
by MDI for on-site services.

       To evaluate MDI’s practices for managing billings from and payments
to its subcontractors, we interviewed contract administration staff, BOP
acquisition staff, personnel from the BOP’s Headquarters, officials from MDI,
and personnel from the MDI’s primary subcontractor, the Duke University
Health System (DUHS). We also reviewed documents provided by the BOP,
MDI, and DUHS. Additional details about our objectives, scope, and
methodology are included in Appendix I.

       5
          The audit found that MDI had billed the BOP for $1,514,981 in unsupported costs,
and we made a statistical projection based on the identified unsupported costs that MDI had
billed the BOP a total of $2,428,345 in unsupported costs.
       6
       The third objective was included based in part on concerns expressed to the OIG
by members of Congress that MDI was not paying one of its subcontractors.




                                            3

              FINDINGS AND RECOMMENDATIONS

     The BOP took corrective actions to implement the recommendations
     we made in our 2007 audit report, but did not ensure that those
     corrective actions were fully implemented. Therefore, the BOP’s
     corrective actions were not fully effective in improving the deficiencies
     reported in the initial audit. Specifically, the BOP installed a time clock
     for use at FCC Butner to improve the accuracy of hours billed for on-
     site provider services, but we found that the BOP did not consistently
     enforce its use. As a result, we identified billings totaling $140,819
     paid to MDI by the BOP for which we could not determine the accuracy
     of the hours billed. We also found that MDI billed the BOP and
     received payment for services provided by its subcontractors, but did
     not reimburse subcontractors for some of those services. We believe
     that the BOP did not take prompt action to protect itself or the federal
     government from awarding additional contracts to MDI after BOP
     learned of MDI’s failure to pay its subcontractors. While we did not
     find evidence of an actual adverse impact from this delay, in general
     delays such as this increase the risk of BOP institutions unknowingly
     making awards to companies that are having financial difficulties. This
     report makes seven recommendations for improvements to the BOP’s
     contract administration practices.

The BOP’s Actions to Implement the Recommendations from Our
2007 Audit and the Effectiveness of Those Actions

      In 2007 the OIG made 10 recommendations to the BOP to remedy
$2,428,345 in questioned costs for unsupported hours billed by MDI,
address weaknesses in controls over the accuracy of billings for hours of
services provided by on-site providers, improve the administration of the
contract, and improve controls over the review of and payments for medical
procedures. The $2,428,345 in questioned costs was a statistical projection
based on actual unsupported costs of $1,514,981 identified during the 2007
audit. Subsequent to issuance of the 2007 audit report, we adjusted the
amount that we suggested the BOP should remedy to the actual questioned
costs of $1,514,981. In the following sections, we discuss the BOP’s actions
to address the 2007 audit recommendations and the effectiveness of those
actions.




                                      4

Actions to Remedy Questioned Costs from the OIG’s 2007 Audit

      In August 2013, the BOP provided documentation to remedy the
remainder of the questioned costs identified during the OIG’s 2007 audit and
we closed the recommendation.7

Actions to Strengthen Controls over Hours Billed for On-site Providers

         Adequate controls over the accuracy of hours billed for on-site
 provider services are an essential aspect of BOP’s oversight of federal funds
 paid for medical services at FCC Butner. As of September 30, 2012, the
 BOP had paid MDI more than $35.7 million for hours billed for provider
 services. MDI submitted bi-weekly billings, supported by timesheets, to
 the BOP for total hours worked by its providers and physicians in specialty
 clinics throughout FCC Butner. Because providers work in various
 capacities and in different areas throughout the correctional complex,
 adequate controls and oversight of the hours worked and billed were
 necessary to ensure that federal funds were paid only for services actually
 received.

      Our 2007 audit found that the BOP paid invoices that were not always
reviewed by the BOP’s contract administration staff, which resulted in billing
errors and unsupported contract costs. Specifically, we found that the BOP
paid invoices that: (1) contained unallowable billing rates and positions;
(2) included unsupported, miscalculated, and unapproved timesheets; and
(3) did not always support providers’ actual arrival and departure times to
confirm whether the providers worked the hours billed.

       The initial audit identified discrepancies in the hours billed as
compared to the hours supported by the sign-in/sign-out logs used by on-
site providers and specialty physicians upon their arrival and departure at
each FCC Butner facility. We recommended that the BOP implement controls
requiring providers to record their arrival and departure times within their
designated work areas each day, as better controls for recording arrival and
departure times increase the BOP’s ability to cross-check hours billed. We
also recommended that the BOP compare the providers’ timesheets, which
are included in the invoices, to the sign-in/sign-out logs used by the
providers to record their arrival and departure time each day as an
additional verification of the accuracy of provider hours billed.



      7
        The BOP provided documentation to support $219,520 and recovered the
remaining $1,295,461 by withholding payment for invoices owed to MDI.




                                         5

      Implementation of a Time Clock

      To address our recommendations in this area, the BOP installed a time
clock to capture the providers’ arrival and departure times within FCC
Butner’s Federal Medical Center (FMC). The timecards generated by the
time clock were used to verify the accuracy of the providers’ hours billed by
MDI.

       To determine if these corrective actions improved the controls over the
billing review process, we selected 31 invoices submitted by MDI and paid by
the BOP between October 2009 and April 2012. Each of these invoices
contained the bi-weekly hours billed for time worked by the on-site
providers. From these invoices, we selected 125 transactions containing
3,634 hours billed and totaling $539,753. We reviewed and tested support
documentation submitted with the invoices by MDI to determine if the hours
billed were supported by timecards obtained from the time clock.

      We found that while accuracy of the billings improved with the
implementation of the time clock, MDI continued to bill and be paid for hours
for which there was no adequate assurance of accuracy. Specifically, we
determined that 106 of the 125 transactions totaling $352,083 were not
supported by timecards. We found inconsistencies in the use of the time
clock by some on-site providers. In some instances, the on-site providers
registered the time of arrival, but did not register the time of departure.
Also, according to health services administration staff, some providers
refused to use the time clocks, and we did not find evidence that BOP had
made efforts to ensure that MDI requested all on-site providers use the time
clock. When asked about BOP’s efforts to enforce provider use of the time
clock, BOP’s contract administration staff, which is responsible for
implementing the time clock on behalf of BOP, told us that MDI should have
done more to ensure that providers complied with BOP directions to use the
time clock.

      We asked the BOP how they verified hours billed when the timecards
were not reliable or unavailable. The BOP staff told us they relied on the
sign-in/sign-out logs. However, the BOP staff also told us that the accuracy
of the time billed is more difficult to verify when the only support is the sign-
in/sign-out logs because the providers did not always record both their
arrival and departure time.

      Because of the providers’ inconsistent use of the time clocks and the
BOP’s lack of enforcement of the time clock usage, we reviewed the sign-
in/sign-out logs to determine the accuracy of the hours billed for the 106
transactions for which complete and reliable timecards were not available.


                                        6

       As shown in the following exhibit, the accuracy of the billings for 956
of the 1,860 hours that MDI billed for these 106 transactions could not be
verified by the sign-in/sign-out logs. The 956 unsupported hours billed
totaled $140,819.8

           EXHIBIT 2: RESULTS OF TEST PERFORMED TO EVALUATE


             CORRECTIVE ACTIONS IMPLEMENTED BY THE BOP 

                                                                         AMOUNT
                                                                          PAID
                                                            HOURS        TO MDI
    Hours Billed for Transactions Tested                      3,634       $539,753
    Number of Hours Validated by Time Clock                    1,774       $187,670
    Hours Not Verified by Timecards                           1,860       $352,083
    Hours Verified by Logs                                       904       $211,264
    Hours Paid without Support of Accuracy                      956       $140,819
    Source: OIG analysis of FCC Butner records


      During our review of sign-in/sign-out logs, we also confirmed that the
sign-in/sign-out logs are not always reliable for determining the accuracy of
hours billed by on-site providers because the actual arrival and departure
times are often recorded inconsistently. For example, we found instances
when providers signed in but did not sign out, which made it impossible to
determine if the hours billed were accurate. In another example where a
provider billed more than 24 hours of continuous services, the sign-in/sign-
out log showed the arrival time, but the departure time did not specify
whether the departure was for morning or evening, making it difficult to
determine the accurate departure time.

      Based on these findings, we remain concerned about the BOP’s efforts
to ensure that billings for all medical provider hours are accurate and
properly supported. Therefore, we recommend that BOP revise and take
additional steps necessary to enforce its policy requiring all on-site providers
to use the time clock.

      Implementation of Timesheet Reviews

     In the 2007 audit, we found that the BOP did not review provider
timesheets prior to making payments. Instead, timesheets were reviewed
and approved by MDI’s on-site contract manager. Our timesheet review

      8
          Because MDI’s assets are being liquidated by a court-appointed Receiver, we are
not recommending that the BOP remedy the $140,819 in unsupported costs. However, we
do make recommendations to the BOP for improvements to minimize such unsupported
costs in the future.




                                                 7

during the initial audit showed that the BOP paid billings for which:
(1) providers’ timesheets contained calculation errors, (2) timesheets
showing the hours billed did not match the hours worked, and
(3) timesheets were not provided. We recommended that the BOP ensure
providers’ timesheets are reviewed and approved by BOP personnel prior to
payment.

      The BOP addressed this recommendation by requiring MDI to submit
timesheets directly to the Contracting Officer’s Technical Representatives
(COTR) for review. The COTR compared the timesheets to a computer-
generated report, documented any discrepancies, and resolved those
discrepancies with an MDI on-site coordinator.

       During our follow-up audit, we confirmed that the timesheets were no
longer reviewed and approved by MDI personnel. Instead, during our period
of review, a third party contractor and BOP staff performed the reviews.9
We found the timesheets were calculated properly, the hours billed matched
the hours recorded on the timesheets, and timesheets were included in the
billings reviewed.

Other Actions to Improve Administration of the Contract

       In the 2007 audit, the OIG made three additional recommendations to
improve the administration of the contract by: (1) implementing controls to
ensure that personnel services are consistently provided within the terms
and conditions of the contract, (2) including specific terms and requirements
for the billing of personnel services in the pricing and billing sections for
future medical services contracts, and (3) ensuring the contractor adheres to
all terms of the contract.

      To address these recommendations, the BOP told us that the
supervisory contract specialist would maintain and update the contract
administration plan for the successor contract, and that the contract
administration plan would be updated as necessary to reflect current
information. The BOP also told us that a COTR would be assigned to each
contract deliverable area in order to improve the monitoring of the
contractor’s performance.

     During this follow-up audit, we confirmed that the BOP had adequately
implemented our recommendations in this area. Specifically, we found that:

      9
         In January 2013, the BOP discontinued the use of a third-party contractor and
assigned the task of reviewing and approving the timesheets to a BOP employee.




                                            8

(1) a Supervisory Contract Specialist maintains the contract administration
plan and updates the plan as necessary; (2) the contract administration staff
participates in bi-weekly meetings with the health service administration
staff to improve contract administration; (3) the BOP assigned four COTRs to
work on the administration of the contract; and (4) and the BOP added
language to the contract to define specific terms and requirements for the
billing of personnel.

       However, we also found during this follow-up audit that MDI did not
comply with all of the requirements in the subcontracting plan it filed
pursuant to the Federal Acquisition Regulation Subpart 52.219-9, Small
Business Subcontracting Plan. Specifically, MDI’s subcontracting plan
indicated that 18 percent of its subcontracts would be made to small
businesses, yet MDI awarded only 4 percent of the subcontracts to small
businesses.10 According to BOP officials, MDI’s lack of compliance with the
subcontracting plan was known and documented in reports submitted to BOP
by MDI. However, the BOP did not take action to ensure MDI was making a
good faith effort to achieve its subcontracting goals, using the standards set
forth in FAR 19.705-7(c) and (d). Accordingly, we recommend that the BOP
ensure contracting administration staff are adequately trained to ensure that
contractors make a good faith effort to comply with their subcontracting
plans and take appropriate action when BOP learns that a contractor is at
risk of not fulfilling a material aspect of its contract.

Actions to Improve Controls over the Review and Payment of Medical Claims

       In the 2007 audit, we found weaknesses in the BOP’s processes for
reviewing medical claims submitted for payment. We recommended that the
BOP: (1) develop controls to independently verify billing claims in
accordance with Medicare allowable payments for hospital services,
(2) direct the contract administration and financial management officers to
develop internal controls that establish the duties and responsibilities of each
individual assigned to review and approve the contractor's billings prior to
payment, and (3) review a sample of inpatient medical claims billed prior to
October 2004 and ensure that no other excess billings were made and paid
for medical claims.

     In response to our prior audit, the BOP provided documentation to
show that it had reviewed a sample of medical claims prior to October 2004


       10
          Federal Acquisition Regulation Subpart 52.219-9(k) states that failure of a
contractor to comply in good faith with the subcontracting plan shall be considered a
material breach of the contract.




                                             9

and found no further excess billings. The BOP also contracted with an
adjudication contractor to review medical claims to ensure proper coding and
pricing.11 The BOP also contracted with a third-party contractor to work at
FCC Butner to review and follow up on the adjudication contractor’s results.
The BOP developed internal controls to establish the duties and
responsibilities of each individual assigned to review and approve the
contractor's billings prior to payment. We found that the adjudication
process and third-party review process to be effective at correcting the
coding and pricing deficiencies identified in our prior audit.

MDI’s Practices for Managing Billings and Payments to its
Subcontractors and the BOP’s Actions to Address Deficiencies in
MDI’s Practices

      Based in part on concerns expressed to the OIG by members of
Congress, we evaluated MDI’s practices for managing billings from and
payments to its subcontractors. As previously discussed, MDI acted as an
intermediary between providers and the BOP and developed provider
networks to provide medical care to inmates. MDI submitted billings to the
BOP for the provider services bi-weekly, and the BOP remitted payment to
MDI within about 30 days.

       During this follow-up audit, MDI was involved in a payment dispute
with its largest subcontractor, the Duke University Health System (DUHS).
DUHS claimed that MDI owed it more than $16 million, including penalties,
for inpatient medical services DUHS provided to FCC Butner inmates. Our
follow-up audit also identified six additional MDI subcontractors who claimed
that they were owed outstanding payments for services provided to inmates
at other BOP institutions. In total, the other six subcontractors claimed that
MDI owed them more than $6 million.

       The circumstances surrounding MDI’s non-payment practices created
significant challenges for the contractor that succeeded MDI as the primary
medical services contractor for FCC Butner. The new contractor immediately
received negative feedback from medical providers who had difficulty
receiving payments from MDI. The providers were reluctant to finalize their
agreements for the new contract and did not want to risk facing similar non-
payment issues. The new contractor also experienced difficulties obtaining
agreements from community providers to manage on-site and off-site


       11
          Adjudication is the process of paying or denying claims after comparing the claims
to the benefit or coverage requirements.




                                            10 

medical care for FCC Butner. As a result, the difficulties arising from MDI’s
non-payment practices not only affected MDI’s subcontractors, they also
jeopardized the availability of inmate medical care at FCC Butner and
highlighted the importance of BOP establishing appropriate and effective
mechanisms for responding to contractors who encounter repeated payment
disputes with subcontractors.

MDI’s Billing Dispute with DUHS

      In November 2010, the BOP received notice from DUHS that it had not
been paid by MDI. In January 2011, DUHS terminated its agreement with
MDI because of MDI’s failure to pay. In February 2011, DUHS notified the
BOP of its terminated contract with MDI and advised the BOP that services
provided to FCC Butner inmates after the contract termination date of
January 10, 2011, would be billed directly to the BOP with payment
expected within 30 days.

       In early March 2011, DUHS submitted a letter to MDI and the BOP
informing them that, because of MDI’s non-payment for services previously
provided and the BOP’s refusal to provide assurance of payment, effective
April 1, 2011, DUHS would no longer accept FCC Butner inmates for medical
services other than when emergency medical care was required. Later in
March 2011, BOP responded to DUHS in a letter stating that the BOP’s
contractual relationship for providing outpatient and inpatient inmate
medical services was with MDI, and that any unpaid balances incurred by
MDI are the sole responsibility of MDI. In contrast, in an April 2011 letter,
DUHS took the position that the BOP is responsible for payments relating to
services provided after the termination of its agreement with MDI, and
jointly liable with MDI for the unpaid balances relating to services rendered
prior to the termination of the agreement. In the April 2011 letter, DUHS
advised the BOP that it intended to take legal action against the BOP to
recover these payments, and also requested that the BOP take action to
encourage MDI to pay the amounts DUHS believed it was owed.

       In April 2011, based on the terms of its contract with MDI, DUHS also
initiated arbitration proceedings with the American Arbitration Association in
North Carolina.12 A binding arbitration hearing was scheduled in October
2012 to settle the dispute.


       12
          The American Arbitration Association is a not-for-profit organization with offices
throughout the U.S. It provides alternative dispute resolution services to organizations who
wish to resolve conflicts out of court.




                                            11 

      Prior to the hearing, however, Wells Fargo sued MDI for failure to
repay a $30 million loan, and in September 2012, a judge ruled in favor of
Wells Fargo and appointed a Receiver to perform any and all acts necessary
for the proper and lawful conduct of MDI’s affairs.13 Subsequently, the
court-appointed Receiver and DUHS agreed to a judgment in favor of DUHS
in the amount of $13,916,622, and the arbitration case was dismissed.
Neither the Receiver nor DUHS expect that DUHS will receive any proceeds
from the judgment because of DUHS’ status as an unsecured creditor.

MDI’s Accounting for Payments Received from the BOP and Made to
Subcontractors

      During our audit, we attempted to determine how MDI accounted for
the payments made by the BOP under the contract. According to MDI’s
records, as of July 2012, MDI had received $113,501,581 from BOP, which
included claims submitted by DUHS. During the same period, MDI disbursed
$68,478,513 to subcontractors performing services under the contract,
including about $26 million specifically disbursed to DUHS.  We could not
determine how MDI used the difference of $45,023,068 because of the
process MDI used to reimburse its subcontractors. When MDI disbursed
money received from BOP to its subcontractors, it did not do so on a
reimbursement basis, meaning that it did not disburse money received from
BOP based on particular subcontractor invoices to the subcontractors that
submitted those invoices. Instead, MDI paid its subcontractors based on its
cash flow and MDI’s legal counsel told us that, as a result, money received
from the BOP based on one subcontractor’s invoices was sometimes used to
pay other providers and subcontractors. MDI’s legal counsel also told us
that MDI did not pay to DUHS the amounts DUHS believes it is owed
because MDI did not agree with the amount and penalties that DUHS
believed MDI owed.14

BOP’s Efforts to Address MDI’s Non-payment to DUHS Prior to Extending
MDI’s Contract in April 2011

      We found that in January 2011, prior to exercising its option to extend
MDI’s contract into Option Year 4 in April 2011, the BOP contacted MDI to
discuss the unpaid bills, and MDI provided assurances that it intended to pay
DUHS. In addition, in January 2011, BOP contract officials considered

       13
            MDI consented to the receivership as part of its settlement with Wells Fargo.
       14
          In this paragraph, “MDI’s legal counsel” refers to MDI’s counsel prior to MDI’s
operation under the court-appointed Receiver.




                                              12 

making a determination of non-responsibility, which could have resulted in
termination of MDI’s contract at FCC Butner.15 However, according to
contemporaneous BOP documentation provided to the OIG, BOP officials
were not sure whether a determination of non-responsibility could be made
prior to exercising a contract option because they perceived that Federal
Acquisition Regulation (FAR) Subparts 9.103 and 17.207, which address
determinations of non-responsibility and exercise of contract options, were
not clear about making such determinations when deciding to exercise
contract options. A BOP Field Acquisition Office official researched FAR Parts
9 and 17 for FCC Butner contracting officials and concluded that neither
section addresses conducting a determination of responsibility in conjunction
with exercising a contract option.16 The Field Acquisition Office official
indicated that FAR 17.207 discusses the exercise of contract options but is
silent on not exercising an option due to a lack of responsibility. The official
indicated that FAR 9.103 states that no purchase or award shall be made
unless the contracting officer makes an affirmative determination of
responsibility. The Field Acquisition Office official concluded that BOP could
make the argument that the exercise of an option constitutes an award, and
therefore the BOP could support performing a responsibility determination.
However, the Field Acquisition Office official told FCC Butner contracting
officials that strong consideration should be given to contingency plans for
how the necessary medical services would be obtained for FCC Butner if they
decided to not exercise Option Year 4 of the MDI contract.

      FCC Butner contracting officials ultimately decided to exercise Option
Year 4 of the contract in April 2011, instead of making a determination of
non-responsibility because doing so would have resulted in termination of
the MDI contract and BOP would not have sufficient time to advertise and
award a new contract before Option Year 3 expired.

BOP’s May 2011 Determination that MDI was a Non-responsible Party

      In May 2011, shortly after BOP exercised Option Year 4 of MDI’s
contract to provide medical services at FCC Butner, the BOP’s Field
Acquisition Office made a determination with respect to a proposed contract


       15
          A contracting officer may determine a contractor to be non-responsible when a
contractor does not have a satisfactory record of performance or record of integrity and
business ethics.
       16
          The Field Acquisition Office is a Headquarters-level activity under the BOP’s
Administrative Division, but is located in Grand Prairie, Texas. The office is responsible for
pre-award procurement actions of proposed contracts exceeding $100,000.




                                              13 

for medical services at another BOP facility that MDI was a non-responsible
contractor in accordance with the Federal Acquisition Regulation.

       The Federal Acquisition Regulation states that contracts shall be
awarded to responsible, prospective contractors only. No purchase or award
shall be made unless the contracting officer makes an affirmative
determination of responsibility. In the absence of information clearly
indicating that the prospective contractor is responsible, the contracting
officer shall make a determination of non-responsibility. As discussed below,
the BOP based its determination of non-responsibility on MDI’s failure to
meet four of seven general standards used to determine contractor
responsibility.17 Notably, the BOP determined that MDI had complied with
the remaining three general standards: satisfactory record of performance,
satisfactory record of integrity and business ethics, and qualification and
eligibility to receive an award under applicable laws and regulations.

      Federal Acquisition Regulation 9.104-1(a) states that to be
determined responsible, a prospective contractor must have adequate
financial resources to perform the contract, or the ability to obtain them.
In the May 2011 determination, the BOP determined that MDI had not
displayed the ability to have adequate financial resources to perform under
a medical services contract for the other BOP facility or the ability to obtain
such resources. During the process to determine if MDI was a responsible
contractor, the BOP identified seven of its facilities that received some type
of communication from service providers regarding MDI’s lack of payment.
These provider claims for payments owed by MDI amounted to more than
$13 million. The BOP’s determination noted that based on MDI’s financial
struggles, which BOP contended were demonstrated by MDI’s inability to
make timely payment to its subcontractors, the government had no
current data on which to conclude that MDI was financially stable or had
the ability to obtain additional funding. Therefore, the BOP determined
that MDI could not satisfy this responsibility standard.

      Federal Acquisition Regulation 9.104-1(b) states that to be
determined responsible, a prospective contractor must be able to comply
with the required or proposed delivery or performance schedule, taking

       17
          To be considered responsible, a contractor must: (1) have adequate financial
resources to perform the contract, (2) comply with the delivery or performance schedule,
(3) have a satisfactory performance record, (4) have a satisfactory record of integrity and
business ethics, (5) have the necessary organizational resources, (6) have the necessary
equipment and facilities, and (7) be qualified and eligible to receive an award under
applicable laws and regulations.




                                             14 

into consideration all existing commercial and government commitments.
In the May 2011 determination, the BOP determined that based on MDI's
financial instability, it was uncertain whether MDI could perform under the
contract for the other BOP facility to provide health care to inmates. The
BOP noted that because of MDI's inability to make timely payments, seven
additional MDI sub-contracted medical providers at other BOP facilities had
refused to treat inmates, threatened to discontinue medical care to the
inmates, and terminated their agreements with MDI. For example, at the
BOP’s Metropolitan Detention Center in Guaynabo, Puerto Rico, an MDI-
subcontracted hospital refused to take BOP patients because of MDI’s lack
of payments to the hospital. In another example, at the BOP’s Federal
Correctional Complex in Allenwood, Pennsylvania, an MDI-subcontracted
provider determined that MDI was past due on payments for several
months of medical services provided to BOP inmates and terminated its
contracts with MDI. Accordingly, the BOP concluded that it did not have
confidence that MDI would be able to maintain a network of medical
providers capable of meeting performance schedules at the other BOP
facility. Therefore, the BOP determined that MDI could not satisfy this
responsibility standard.

      Federal Acquisition Regulation 9.104-1(e) states that to be
determined responsible, a prospective contractor must have the necessary
organization, experience, accounting and operational controls, and
technical skills, or the ability to obtain them. In the May 2011
determination, the BOP concluded that MDI did not have the necessary
accounting and operational controls in place to perform under the contract
for medical services at the other BOP facility based on the same financial
and operational concerns detailed above for Federal Acquisition Regulation
9.104-1(a) and 9.104-1(b). The BOP therefore determined that MDI could
not satisfy this responsibility standard.

       Federal Acquisition Regulation 9.104-1(f) states that to be determined
responsible, a prospective contractor must have the necessary production,
construction, and technical equipment and facilities, or the ability to obtain
them. In the May 2011 determination, the BOP expressed uncertainty about
whether MDI possessed the necessary facilities to continue providing medical
care to BOP inmates since several of MDI's sub-contracted medical providers
terminated their agreements due to lack of payment by MDI. The BOP
noted that several other MDI sub-contracted medical providers had either
terminated or established a date for termination of their agreements with
MDI. The BOP also noted that it had received correspondence from MDI
subcontractors regarding legal actions seeking payment from MDI. Further,
the BOP concluded that, based on MDI’s current financial condition, it was
failing to maintain the necessary medical facilities to fulfill its contractual


                                      15 

obligations, and that MDI had not presented the BOP with any confirmation
that MDI had the ability to establish agreements with local medical providers
that would allow it to continue to meet its financial obligations. Therefore,
the BOP determined that MDI could not satisfy this responsibility standard.18

BOP’s Actions to Communicate its Determination of MDI to be a
Non-responsible Contractor to Other BOP Facilities

       Although the determination of non-responsibility was made in May
2011, the BOP did not send an agency-wide announcement to procurement
officials until February 2012. According to the BOP, the decision to
communicate the determination and reasons for it to the procurement
officials was made after it became clear that payment problems with MDI
had escalated over time and that, despite MDI’s repeated assurances, MDI
was not going to be able to solve its cash flow problems. The announcement
advised procurement officials not to award any new contracts or contract
modifications to MDI without first consulting with the BOP’s Field Acquisition
Office.

      In our judgment, the BOP took too long to address the issue internally.
While we did not find where the BOP awarded any new work to MDI after
becoming aware of MDI’s non-payment issues, the BOP’s failure to share
information internally in a more timely manner risked preventing contract
administration staff from having adequate information to make cost effective
decisions to procure contracted medical services and reduce the risk of doing
business with a non-responsible contractor.

BOP’s Failure to Communicate with the Federal Contracting Community

     The BOP also failed to take adequate actions to protect other federal
agencies that may have considered or were considering doing business with
MDI.

      The Federal Awardee Performance and Integrity Information System
(FAPIIS) is a database established to track contractor misconduct and
performance. The database contains federal contractor criminal, civil, and
administrative proceedings in connection with federal awards, suspensions
and debarments, administrative agreements issued in lieu of suspension or

       18
           Around the same time, BOP also referred two issues relating to MDI to the OIG.
The first referral, which the OIG received on April 27, 2011, related to MDI’s failures to pay
subcontractors. The second referral, which the OIG received on May 26, 2011, related to
issues with certain contract proposals submitted to BOP in late 2010, one of which involved
MDI.




                                              16 

debarment, non-responsibility determinations, contracts terminated for fault,
defective pricing determinations, and past performance evaluations.

      According to Federal Acquisition Regulation Subpart 9.105-2, the
contracting officer shall document the determination of non-responsibility in
FAPIIS if the determination is based on lack of satisfactory performance
record or satisfactory record of integrity and business ethics standards. We
found when the BOP considered its decision for MDI’s non-responsibility
determination, the BOP determined that MDI demonstrated a satisfactory
performance record and record of integrity and business ethics. Because the
BOP considered MDI’s performance and record of integrity and business
ethics to be satisfactory, the BOP was not required to report MDI’s non-
responsibility into FAPIIS.

       However, we disagree with the BOP’s judgment that MDI had complied
with the standards for integrity and business ethics. MDI received payments
from the BOP for services performed by its subcontractors and then failed to
pay the subcontractors for all of the services. Not paying subcontractors for
the services performed was strong evidence that MDI lacked integrity and
business ethics. As such, we believe that the BOP inappropriately reported
in its determination of non-responsibility that MDI had a satisfactory record
of business ethics and integrity. Such actions by the BOP weaken the
controls established to provide contractor oversight and transparency within
the federal contracting community.

       In addition, we believe that the BOP could have also requested that
MDI be suspended from government contracts to protect other federal
agencies from contracting with MDI. Federal Acquisition Regulation Subpart
9.407-2 provides that the suspending official may upon adequate evidence
suspend a contractor for any cause of so serious or compelling a nature that
it affects the present responsibility of a government contractor or
subcontractor. We believe that the BOP had evidence that confirmed MDI
and its officers were not responsible, and that the BOP should have
requested MDI’s suspension from future federal business until MDI
adequately addressed its financial difficulties. Yet the BOP never
recommended MDI’s suspension, not even when it made its explicit
determination in May 2011 that MDI was a non-responsible contractor.19




      19
          The OIG has not recommended the suspension and debarment of MDI during this
follow-up audit because MDI is no longer operational.




                                         17 

BOP’s Actions to Minimize the Risk of Future Non-payment of Subcontractors

      To minimize the risk of future non-payment to subcontractors, we
assessed whether the BOP has begun incorporating appropriate clauses into
medical services contracts regarding prime contractor payment of
subcontractors. To do so, we reviewed six contracts awarded between June
and August 2012 to four contractors for the comprehensive medical services
at FCC Butner. These six contracts replaced the MDI contract. Our review
found that the BOP did not incorporate any clauses into the contracts to
make prime contractors responsible for non-payments to its subcontractors.

      We discussed this issue with FCC Butner officials and they agreed such
clauses incorporated into the contract would help the BOP take action when
a prime contractor fails to pay its subcontractors. However, the BOP officials
stated that no such subcontractor payment clauses exist in the Federal
Acquisition Regulation for commercial-item type contracts, such as the
contract awarded for FCC Butner. The BOP officials also stated that adding
such a clause to the contracts would require requesting that the Federal
Acquisition Regulation Council make changes to the Federal Acquisition
Regulation.

      In our judgment, it would be appropriate for BOP to explore all
alternatives available to ensure that subcontractors who appropriately
provide services receive payment. This effort should specifically address
circumstances where a subcontractor is compelled by either medical ethics
or law to provide medical services even when the subcontractor reasonably
believes it will not receive payment from a BOP contractor. For example, the
BOP could ask the Acquisition Regulation Council to add language to the FAR
to address this problem.

Conclusion

      The BOP took corrective actions to implement the recommendations
we made in our 2007 audit, but did not ensure that those corrective actions
were fully implemented. Consequently, the BOP’s corrective actions were
not fully effective in improving the deficiencies reported in the initial audit.
In August 2013, the BOP provided documentation we deemed sufficient to
remedy the remainder of the questioned costs identified during the OIG’s
2007 audit and we closed the recommendation.20 However, in this follow-up


      20
          Actual unsupported costs identified in the 2007 audit were $1,514,981. The BOP
provided documentation to support $219,520 and recovered the remaining $1,295,461 by
withholding payment for invoices owed to MDI.




                                           18 

audit, we identified an additional $140,819 for hours of services paid to MDI
without proper support. We also found that the BOP did not take prompt
action to protect the BOP and other federal agencies from MDI’s failure to
pay its subcontractors. As a result, we make seven recommendations to
improve the BOP’s contract management practices.


Recommendations

       We recommend that the BOP:

1.		   Ensure that all contracted on-site providers use the time clock to
       record their time of arrival and departure.
        
2.		   Ensure that contract administration staff are adequately trained to
       monitor contractors to ensure they comply with their subcontracting
       plans.

3.		   Obtain clarification about and promulgate any necessary training and
       guidance with respect to the application of Federal Acquisition
       Regulation Subpart 9.103 and contractor non-responsibility
       determinations in the context of exercising a contract option year.

4.		   Establish procedures to ensure that all BOP procurement personnel are
       promptly informed of determinations of non-responsibility made at
       other BOP institutions and are instructed not to award any new work
       to the non-responsible contractor unless the circumstances causing the
       non-responsibility have been corrected.
        
5.		   Ensure that contract administration staff are adequately trained to
       emphasize the requirements of reporting determinations of
       non-responsibility to the Federal Awardee Performance and Integrity
       Information System in accordance with FAR Subpart 9.105-2.
        
6.		   Ensure that contract administration staff are adequately trained to
       promulgate the federal regulation and BOP policy for recommending
       contractors for suspension and debarment.
        
7.		   Consider incorporating into all medical services contracts appropriate
       language defining the consequences for the prime contractor if
       subcontractors who appropriately provide services do not receive
       payments to which they are entitled.




                                      19 

                 STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the BOP’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. BOP management is responsible for the establishment
and maintenance of internal controls.

      Through our audit testing, we did not identify deficiencies in the BOP’s
internal controls that were significant within the context of the audit
objectives and that, based upon the audit work performed, we believe would
adversely affect BOP’s ability to effectively and efficiently operate, to
correctly state financial information, and to ensure compliance with laws
and regulations.

       Because we are not expressing an opinion on the BOP’s internal
control structure as a whole, this statement is intended solely for the
information and use of the BOP. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                      20 

                STATEMENT ON COMPLIANCE WITH 

                    LAWS AND REGULATIONS 


     As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
BOP’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. BOP’s management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following laws and regulations that concerned the operations of the
auditee and that were significant within the context of the audit objectives:

        Federal Acquisition Regulation

      Our audit included examining, on a test basis, BOP’s compliance with
the aforementioned regulation that could have a material effect on BOP’s
operations, through interviews with BOP personnel, and analyzing
documents provided by BOP. Other than the issues specifically noted in this
report, no other matters came to our attention that caused us to believe that
the BOP was not in compliance with the aforementioned regulation.




                                      21 

                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


       The objectives of our audit were to: (1) determine if the BOP took
appropriate actions to implement the recommendations from our 2007 audit,
(2) determine if the corrective actions implemented improved the BOP’s
oversight of the contract and MDI’s compliance with the terms and
conditions of the contract, and (3) evaluate MDI’s practices for managing
billings from and payments to its subcontractors.

      We conducted our performance audit in accordance with Government
Auditing Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit concentrated on the inception of the
contract on April 18, 2007, through December 31, 2012.

       To determine the status of the BOP’s implementation of the 2007 audit
recommendations, we performed audit work at FCC Butner, where we
interviewed key officials including the BOP Medical Director, the Supervisor
Contracting Specialist, the Business Administrator, finance staff, a contract
representative that reviewed medical claims for FCC Butner, and the
Contracting Officer’s Technical Representatives. We reviewed supporting
documentation for the corrective actions implemented by the BOP. We also
verified the corrective actions to the BOP’s contract administration practices.

       To determine if the corrective actions implemented improved the
BOP’s oversight of the contract and MDI’s compliance with the terms and
conditions of the contract, we selected a judgmental sample of billings from
MDI and performed analyses of billings from and payment to MDI. This non-
statistical sample design does not allow for projection of the test results to
the universe from which the sample was selected. We obtained an
understanding of the contract requirements and contractor’s controls and
processes. However, we did not test the reliability of the financial
management system as a whole. We determined that the contractor’s
records were sufficiently reliable to meet the objectives of this audit.

       To evaluate MDI’s practices for managing billings from and payments
to its subcontractors, we interviewed contract administration staff, Field
Acquisition Office staff, personnel from the BOP’s Headquarters, officials
from MDI, and personnel from the MDI’s primary subcontractor, DUHS. We
also reviewed documentation related to MDI’s billing and payment practices.




                                      22 

                                                                          APPENDIX II

THE BUREAU OF PRISON’S RESPONSE TO THE
            DRAFT REPORT

                                           u.s. Ikllllrimeni or Justice
                                           f ederal Bun:au of Prisons




                                           Se pt embe r 23 , 2013




 Htn<K:lRANCUM fOR RAYMOND J. BEAODET
                     ASSISTANT INSPECTOR OEN£RAL
                       FOR AUDIT
                     OPPleS OP ntE INSPECTOR   GE~




 FROM:               ~~.~
                     Director
                     Federal Bureau at Prisons

 SUBJECT:            Response to the ott ice at   "",,.,"or
                     DRAFT Report'




 The Bureau ot Prisons (BOP) appreciates the opportunity to respond
 to the cpen recommendations from OIG'e draft




 Please find the Bureau's response to the recommandations below:
 .acOIIIIIIeDClation 11 Ensure that all contracted on-siee providers use
 the eim. clock to record eheir time of arrival and departure.
 80P's It•• pons.:The Bureau agreea with this recommendation. As of
 Monday, July 22. 2013 , all POe Buener contract ataff ware i.sued a




                                       23 

key fob which is utili~ed in conjunction with the current Facility
Command System. This system automatically logs the contract staff
in and out of the control center's sallyport. The Health Services
Aaeistants generate bi -weekl y reporte to be placed with each contract
staff time sheet. When a discrepancy il noted between reports
generated from the Facility Command Syetem and the contract etaU ' e
time sheet, the Health Services Assistants contact the contractor
for correction. Attachment #1 contains various reporte printed from
the Facility Command System. Having completed the required action,
we request this recommendation be closed.

Recommendation 2: Ensure that contract administration staff are
adequately trained to monitor contractors to eneure they comply with
their subcontracting plans.

BOP' s Response : The Bureau agrees with this recommendation. A
training session will be provided to the PCC Butner contracting etaU
regarding the FAR requirements for assessing, documenting, and if
necessary, remedying a contractor's efforts with regard to
subcontracting achievemente. This training session will be
provided by staff from the Procureme nt Executive'e Office and the
Field Acquisition Office and will be completed by November 1, 2013.

Recommendation 3 : Obtain Clarification about and promulgate any
necessary training and guidance with respect to the application of
Federal Acquisition Regulation Subpart 9.103 and contractor
nan-responsibility determinations in the context of exercieing a
contract option year.

BOP's Jtespons e : The Bureau agrees with this recommendation. While
FAR 17.207 (c) does not specifically require a determination of
responsibility prior to exercising an option, we agree that it is
a prudent exercise of discretion to initiate such a review in ad.dition
to the FAR requirements where known problems with an incumbent
contractor exi Bt. The Bureau wil l addrese thie topic with
contracting staff at a nationwide training session to be held in
FY-2014 . We anticipate this action will be completed by
July 1, 2014.

Recommendation 4 1 Eetablish procedures to ensure that all BOP
procurement personnel are promptly informed of determinations of
non-responsibility made at other BOP institutions and ar e instructed
not to award any new work to the non-responsible contractor unless
the circumstances causing the non-responsibility have been
corrected.
                                  ,




                                24 

BOP' , ae'pon,e: The Bureau agrees with this recommendation, and
will establish procedures to improve communication regarding
non-responsible contractors and to set forth guidance when
contracting staff must consider award to contn.cton who have
previously been found to be non-responsible. These proceduree will
be finali~ed by February 1, 2014.

aecommendat i on 5: Ensure that contract administration staff are
adequately trained to emphasize the requirements of reporting
determinations of non-responsibility to the Federal Awardee
?erformance and Integrity Information System in accordance with FAR
Subpart 9.105-2.

BOP ' , Reaponae: The Bureau agrees with this recommendation. The
Bur eau will addrese this topic with contracting staff at a nationwide
training seseion to be held in FY-2014. We anticipate this action
will be completed by July 1, 2014.

Recommend,tion 6: Ensure that contract administration staff are
adequately trained to promulgate the federal regulation and BOP
policy for recommending contractors fo r suspension and debarment.

BOP' . Respon.el The Bureau agrees with this recommendation. The
Bureau will address thb topic with contracting staff at a nationwide
training session to bs held in FY·2014. We anticipate this action
will be completed by July 1 , 20 14 ,

Recollllllendatioll 7 1 Consider incorporating into all medical services
contracts appropriate language defining the conuequences for the
prime contractor if subcontractors who appropriately provide
services do not receive payments to which they are entitled,

BOP' . Re. ponsel The Bureau agrees to implement this recommendation.
Strateg~es t o enforce a prime contractor' a payment to subcontractors
will be outlined and submitted for il formal legal r=view by the
Bureau' B Office of General Counae1, Once legally-viable strategies
have been identified, an ilppropriate course of action '1111 be defined
and implemented, We anticipate corrective action will be completed
by Apri: 1, 2014.

If you have any queetion5 regarding thb responee, please contact
Sara M. Revell, Assistant Director, Program Review Division, ilt
(202) 353-2302,

                                   3




                                 25 

                                                                                            APPENDIX III

         MEDICAL DEVELOPMENT INTERNATIONAL’S
           RESPONSE TO THE DRAFT REPORT

~~   Bilzin Sumberg
          "   ,

                                                                                             Jelltey I, $",,,-,,
                                                                                            T..   ~7~I.a

                                                                                            F .. :10$-35 1·2241
                                                                                           jlnyderObil:<in ,com



                                                    October 30, 2013


       Via U.S. MIIII find Email: Larry.E.NapQ@l,!!doj.gov

       U.S. Department of Justice
       OffIce 01 the Inspector General
       AIIanta Reg ional Audit OffICe
       75 Spring Street, Suite 1130
       Atlanta, Georgia 30303
       AnN: Larry Napp. Acting Regional Audit Manager

               Re:     Follow-up Audit of Medica l Development International'. Perfonnanc:e Under
                       the FCC Butner Medical Services Contract

       Dear Mr. Napp:

              My firm represents Ronald Winters in his capacity as Receiver for Medical Development
       IntematiONti Lid., Inc. and its affiliates    r MOn
                                                      pursuant to the order of the Delaware Coun of
       Chancery. Enclosed, for your reference , is a copy of the order appointing Mr. Winters as
       Receiver lor MOl.

                The purpose of this letter is to respond to the draft report on the Follow-up Aud~ of MOl',
       Performance UrKter the Federal Correctional Complex Butner Medical Services Contract,
       Butl'ler, North Carolina (the "Draft Report"), which was provided to the Receiver on September
       26, 2013 and to provide the result of the sensitivity review requested by the Office of the
       Inspector General ("OIG.")

               Mr, Winters was appointed as Receiver lor MOl as of September 10, 2012. As the Draft
       Report relates to an initial 5-year contract and successor contract that ended on July 17, 2012,
       substantially all 01 the events described in the Draft Report OCCtIrred prior to the commencement
       01 the receivership for MOl and the Receiver's appointment Accord ingly, because the Receiver
       lacks personal knowledge 01 events that may have occurred pri~ to his appointment, the
       Receiver is not in a position to evaluate the accuracy ~ substance 01 the Draft Report with
       respect to such events. The Receiver's fa ilure to dispute the accuracy 01 the depiction of events
       set fonh in the Draft Report does not signify agreement by the Receiver or by MOl with the
       contents 01 the Report.

              The Draft Report does, however. address cenCiin events that occurred during the MOl
       receivership , to whiel'l the Receiver provides the following Clarifications:




II ll Z IN SUMIIERG IIAENA PR ICE .. AXELROD Ll P
' 450 _ A _. 2:1r<1 floor, - . Fl   33131.;u~   r. 305.374.T5IO   F~'   305.374.1593




                                                          26 

              1. In two consecutive sentences on page 13, the Draft Report indicates that certain
                 information was provided to OIG by "MOl's legal counsel: To the extent that this or any
                 other portion of the Draft Report refers to inlormation provided to OIG by this law firm ,
                 ptease be advised that we are not counsel to MOl , but rather are counsel to Mr. Winters
                 in his capacity as Receiver for MOt

              2. In at least three instances in the Draft Report (pp. Hii and twice on p. 13,) the Draft
                 Report indicates that MOl agreed to pay DUHS $13,916,622. In fact, the Receiver
                 settled MOl's bining dispute with DUHS by, among other things, agreeing 10 entry of a
                 judgment in favor of DUHS In the amount of $13,916,622. AHhough the Receiver, on
                 behalf of MOl, consented 10 entry 01 judgment in the foregoing amount, MOl did not
                 agree to pay DUHS and, at the time that the settlement was entered into, the Receiver
                 advised OUHS that it was unlikely that there wOlJId be sufficient funds available lor a
                 distribution from the receivership to unsew-ed cred~ors of MOl, including OUHS.

              3. AI p. 13, the Draft Report indicates that, "in September 2012, a judge ruled in lavor of
                 Wells Fargo and appointed a Receiver to perform any and all acts necessary for the
                 proper and lawful condlJCl of MOl's affairs." Although it is correct that a VICe-Chancellor
                 of the Delaware Chancery Court did enter judgment in favor of Wells Fargo and
                 appointed the Receiver in accordance with the enclosed order, this occurred as part of a
                 settlement agreement between MOl and Wens Fargo that included among its provisions
                 MOl's consenl to the appointment of the Receiver.

                 Finally, as set forth in the enclosed order, the Receiver has been appointed to wind
        down and liquidate MOt As MOl no longer has ongoing business operations, no information
        contained in the Draft Report is sensitive such that ils public dissemination would "impair the
        operations· of MOl. Accordingly, enclosed please find the "Record of Sensitivity Review"
        reflecting this conclusion.

                Please do nol hesitate to contact me shOlJld you have any questions or concems
        regarding this response.


                                                       V"'2?""'~             _ ___
        JIS:1a
                                                     ~. ~Yder
        Enclosures

        cc:      Sean M. Relay, OIG (Sean.M.Relay@UsdoLgov)
                 Barbara R. Williams, OIG (Barbara.RWilliams@usdOj.gov)
                 Gerardo Cartagena, OIG (Gerardo.Carteaena@l!sdQj.gov) Ronald
                 Wmters, Court-Appointed Receiver (rwinters@alvarelandmarsal.com)
                 Scott L Baena, Esq. fsbaena@bilZin.com)




~J   el lll N SUM BER G BAENA PRICE" AXelROD l lP




                                                       27 

                                                                                                  APPENDIX IV

DUKE UNIVERSITY HEALTH SYSTEM’S RESPONSE
          TO THE DRAFT REPORT



  Response of Duke University Hea lt h System, Inc. to Draft Audit R!!port of the United Stat!!s
               De partm!!nt of Just ice, Office of the Inspl'!ctor Ge neral· Audit Divisio n
  Entrtl ed " Follow·Up Aud it of Medical Dev!! lopment Internation al's Performance Und!!r th!!
   F!!deral Co rrectional Comp le)!. Butn!!r MediCilI Senl ic!!5 Contra ct, Butn!!r, North Carol ina H


Tha nk you for your communic~tion of September 26, 2013 tran~i tting the draft audit report of the
Offic", of th", InspKtor G",neral relating to th", administration of mi!:dical contracts awarded by the
Fi!:deral Bureau of Prisons (" BOP") to Mi!:dical Development International ("Mor) at the Fe deral
Correctional Complex in Butner, North Carolina. Duke University Health System, Inc. ("DU HS")
appreciates the opportunity to revie w and comment on the draft report.

OUHS's principal interest .elates to the section of the draft report entitled "MOl's Practices fo.
Man aging Billings and Payments to i15 Subcontractors and the BOP's Actions to Add ress Deficiencies in
MOl 's Practices." Grcumstances described in that !>!'!Ction of the draft report re lating to the BOP's
actions and !;ailures to act with regard to MOl speak for themse lve s, were not previously known to
OUHS, and requi.e no fu rther comment from OUHS in the conte xt of this audit

DUHS does feel that certain technical descriptions of DUHS's position as a judgment c,i!:dito. of MOl
should be d arifii!:d. First, at the top of page iii in t he Executive Summary it is stated that OU HS and MOl
settled th",i. dispute (which had tilken the form of arbitration procl!:edings instituti!:d by DUHS) Hwith
MOl agreeing to pay OUHS $13,916,622." It is mor e aaurate to state that the settlement resulted in
"MO l confessing liability to OUHS" in the noted amount. Similarly, in the first full paragraph on page 13,
the last sen tence would more accurately desoibe the settlement if it is revised by replacing the phrilSe
"MOl would pay DUHS" with the phrase "MO l confessed liability to DUHS in the amount 01...." Finall y,
Iootnote 2 at the bottom of Pilge iii of the [xe<outive Summary sta tes that DUHS "is concerned that it
may not re<oeive any monies~ from the settlement with MOl. It would be more accurate to sta te that
DUHS "does not expect to" receive any proceeds from ttle settlement, as the Receiver appointed for the
pur~ of liquidating MOl's asse15 has indicated to DUHS tha t recovery of any mo ney by a credi tor in

DUHS's position is extre me ly remote .

Thank you once again for the opportunity to commen t. Please contilct Mark Gustafson, Health System
Counsel, at (919) 684·3955 if you have questions about these comments Or require additional
info rmation.


Submitted by:    MarkGustaf50n
                 Health System Counse l
                 Duke University Health Syste m, Inc.

Date:            October 3, 2013




                                                     28 

                                                                           APPENDIX V

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Federal Bureau of
Prisons (BOP), the court appointed Receiver for Medical Development
International (MDI), and Duke University Health Systems (DUHS). The
BOP’s response is incorporated in Appendix II. MDI’s response is
incorporated in Appendix III. DUHS’ response is incorporated in Appendix
IV. Based on comments provided by the BOP, MDI, and DUHS, we made
minor technical edits where appropriate in the body of this final report.21
The following provides the OIG analysis of the respective responses and
summary of BOP actions necessary to close the report.

Recommendation Number:

   1. Closed. We recommended that the BOP ensure that all contracted on-
      site providers use the time clock to record their time of arrival and
      departure. In its response to the draft report, the BOP concurred with
      this recommendation and explained that it had provided contract staff
      with wireless “key fob” devices that electronically track arrival and
      departure times from the facility. Along with its response, the BOP
      provided documentation showing the tracking system is operational.
      Therefore, this recommendation is closed.

   2. Resolved. We recommended that the BOP ensure that contract
      administration staff are adequately trained to monitor contractors to
      ensure they comply with their subcontracting plans. The BOP
      concurred with this recommendation and stated that by November 1,
      2013, it will provide training to FCC Butner contact administration staff
      on the Federal Acquisition Regulation (FAR) requirements for
      overseeing contractors to ensure they comply with their subcontracting
      plans.



       21
           In its response to the Draft Report, DUHS indicated that it would be more
accurate for the OIG to state in certain sections of the report that the settlement resulted in
“MDI confessing liability to DUHS” in the noted amount. While we do not necessarily
question the accuracy of DUHS’ response on this point, we did not receive evidence during
the audit that liability was indeed confessed by MDI. We only received evidence that an
agreed upon judgment was entered in the amount noted in the report. Accordingly, this
DUHS requested edit was not made to this final report.




                                              29 

   This recommendation can be closed when we receive documentation
   showing the BOP provided the required training. The documentation
   for the training session should include the necessary Federal
   Acquisition Regulation requirements to ensure contracting staff are
   adequately trained to assess, document, and if necessary, remedy a
   contractor’s efforts with regard to subcontracting achievements.

3. Resolved. We recommended that the BOP obtain clarification about
   and promulgate any necessary training and guidance with respect to
   the application of Federal Acquisition Regulation Subpart 9.103 and
   contractor non-responsibility determinations in the context of
   exercising a contract option year. The BOP concurred with this
   recommendation and stated that while the FAR 17.207(c) does not
   specifically require a determination of responsibility prior to exercising
   an option, it would be prudent for the BOP to do so when it is aware of
   problems with an incumbent contractor. The BOP stated that it would
   address this topic with contracting staff at a nationwide training event
   in fiscal year 2014 and complete corrective actions by July 1, 2014.

   This recommendation can be closed when we receive documentation
   showing the BOP completed the corrective action by addressing the
   application of FAR Subpart 9.103 for contractor non-responsibility
   determination in the context of exercising a contract option year.

4. Resolved. We recommended that the BOP establish procedures to
   ensure that all BOP procurement personnel are promptly informed of
   determinations of non-responsibility made at other BOP institutions
   and are instructed not to award any new work to the non-responsibility
   contractor unless the circumstances causing the non-responsibility
   have been corrected. The BOP concurred with this recommendation
   and stated that it would establish procedures to improve
   communication regarding non-responsible contractors and to set forth
   guidance for awarding contracts to non-responsible contractors. The
   BOP plans to finalize these procedures by February 1, 2014.

   This recommendation can be closed when we receive documentation
   showing the BOP has implemented procedures to improve
   communication about non-responsible contractors and guidance that
   addresses making awards to non-responsible contractors.

5. Resolved. We recommended that the BOP ensure contract staff are
   adequately trained to emphasize the requirements of reporting
   determinations of non-responsibility to the Federal Awardee
   Performance and Integrity Information System in accordance with


                                   30 

   Federal Acquisition Regulation, Subpart 9.105-2. The BOP concurred
   with this recommendation and stated that it would address this topic
   with contracting staff at a nationwide training event in fiscal year 2014
   and complete corrective actions by July 1, 2014.

   This recommendation can be closed when we receive documentation
   showing the BOP provided nationwide training that addressed the
   requirements for reporting determinations of non-responsibility to the
   Federal Awardee Performance and Integrity Information System in
   accordance with the FAR, Subpart 9.105-2.

6. Resolved. We recommended that the BOP ensure contract
   administration staff are adequately trained to promulgate the federal
   regulation and BOP policy for recommending contractors for
   suspension and debarment. The BOP concurred with this
   recommendation and stated that it would address this topic with
   contracting staff at a nationwide training event in fiscal year 2014 and
   complete corrective actions by July 1, 2014.

   This recommendation can be closed when we receive documentation
   showing the BOP provided the required training that addressed the
   federal regulation and BOP policy for recommending contractors for
   suspension and debarment.

7. Resolved. We recommended that the BOP consider incorporating into
   all medical services contracts appropriate language defining the
   consequences for the prime contractor if subcontractors who
   appropriately provide services do not receive payments to which they
   are entitled. The BOP concurred with this recommendation and stated
   that it would coordinate with its Office of General Counsel to identify
   legally-viable strategies to enforce prime contractors’ payments to
   subcontractors and implement the appropriate corrective actions by
   April 1, 2014.

   This recommendation can be closed when we receive documentation
   showing the BOP has considered implementing corrective actions that
   address legally-viable strategies to enforce prime contractor payments
   to subcontractors.




                                   31 

